IN THE
SUPREME COURT OF THE UNITED STATES

JOAQUIN S. RAMS - PETITIONER

vs.
COMMONWEALTH OF VIRGINIA - RESPONDENT

ON PETITION FOR WRIT OF CERTIORARI TO
THE SUPREME COURT OF VIRGINIA

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Meghan Shapiro, Esq.*

Deputy Capital Defender
Northern Virginia Capital Defender Office
8245 Boone Blvd., Suite 21 O
Tysons, VA 22185
mshapiro@vadefenders.org
Tel: 703-875-0103
Counsel of Record

Christopher Leibig, Esq.*

The Law Office of Christopher Leibig
114 N. Alfred Street
Alexandria, VA 22314
chris@chrisleibiglaw.com
Tel: 703-683-4310

Lauren LeBourgeois, Esq.

Assistant Capital Defender
Northern Virginia Capital Defender Office
8245 Boone Blvd., Suite 210
Tysons, VA 22185
llebourgeois@vadefenders.org
Tel: 703-875-0103
Counsel for Petitioner, Mr. Joaquin S. Rams

*Members, Bar of the United States Supreme Court

MOTION FOR LEAVE TO PROCEED /N FORMA PAUPERIS
Mr. Joaquin Rams, Petitioner, asks leave to file the attached petition for a writ of
certiorari without prepayment of costs and to proceed in forma pauperis.
Petitioner has been deemed indigent and provided court-appointed counsel
by the Commonwealth of Virginia for all proceedings in this case.
Undersigned counsel Meghan Shapiro was appointed to represent Mr. Rams in
direct appeal proceedings by the Circuit Court of Fairfax County, Virginia, and has
represented Mr. Rams in that capacity in proceedings before the Court of Appeals of
Virginia and the Supreme Court of Virginia. She was appointed pursuant to Virginia
Code Section 19.2-159. See Va. Code sec. 19.2-159(2) ("[T]he said court shall appoint
competent counsel to represent the accused in the proceeding against him, including
an appeal, if any, until relieved or replaced by other counsel.").
The Sentencing Order (Final Order), which includes the order of appointment for
Mr. Rams's a peal, is appended to this Motion.

Meghan S

Deputy C ital Defe der
Northern Virginia Capital Defender Office
8245 Boone Blvd., Suite 21 O
Tysons, VA 22185
mshapiro@vadefenders.org
Tel: 703-875-0103
Counsel of Record
Lauren LeBourgeois, Esq.

Christopher Leibig, Esq.*

The Law Office of Christopher Leibig
114 N. Alfred Street
Alexandria, VA 22314
chris@chrisleibiglaw.com
Tel: 703-683-4310

Assistant Capital Defender
Northern Virginia Capital Defender Office
8245 Boone Blvd., Suite 21 O
Tysons, VA 22185
llebourgeois@vadefenders.org
Tel: 703-875-0103
*Members, Bar of the United States Supreme Court

VIRGINIA:

IN THE CIRCUIT COURT OF PRINCE WILLIAM COUNTY

Hearing Date: August 1, 2017
Judge Designate:
Randy I. Bellows

FEDERAL INFORMATION PROCESSING
STANDARDS CODE:
153

Commonwealth of Virginia

v.
JOAQUIN SHADOW RAMS, SR,
(A.K.A.:
JOHN ANTHONY RAMIREZ, JR.;
JOHN ANTHONY RAMIREZ;
JUQUIN ANTHONY RAMS;
JOAQUIN SHADOW RAMS;
JOAQUIN S. RAMS)
Defendant
SENTENCING ORDER

The cases came before the Court for sentencing of the defendant,
who appeared in person with counsel, Christopher Leibig, Joni Robin,
and Tracey Lenox.
The Attorneys for the Commonwealth, Paul B. Ebert
and James Willett were present.
On April 13, 2017, the defendant was found guilty of the
following:
CASE
NUMBER
CR13002303-00
CR14003686-00

OFFENSE DESCRIPTION AND
INDICATOR (F/M)
CAPITAL MURDER
(Felony)
ATTEMPTED FALSE PRETENSES
(Felony)

OFFENSE
DATE
10/20/2012
09/15/2011

CODE
SECTION
18.2-31(12)
18.2-178

Presentence Report.
The presentence report was considered and
is ordered filed as a part of the record in accordance with the
provisions of Section 19.2-299 of the Code of Virginia.
Commonwealth's Evidence.
and rested.
Defendant's Evidence.
any evidence.

The Commonwealth introduced evidence

The defendant rested without presenting

Before pronouncing the sentences, the Court inquired if the
defendant desired to make a statement and if the defendant desired to
advance any reason why judgment should not be pronounced.
Sentencing.

The Court sentences the defendant to:

JOAQUIN SHADOW RAMS, SR.
August 1, 2017
CR13002303-00, CR14003686-00
PAGE 2
Incarceration with the Virginia Department of Corrections for
the term of:
CR13002303-00 - Life Imprisonment without the Possibility of Parole
and a fine in the amount of one hundred thousand ($100,000.00)
dollars
CR14003686-00 -

ten (10) years

for a total sentence of Life Imprisonment without the Possibility of
Parole plus ten (10) years; and a fine in the amount of one hundred
thousand ($100,000.00) dollars.

These sentences shall run consecutively with each other and to
all other sentences.
Post-Incarceration/Post-Release Supervision.
In addition to the
above sentence of incarceration, the Court imposes an additional term
of three (3) years of post-release incarceration.
This term is
suspended and the defendant shall be subject to a period of postrelease supervision of three (3) years, which is to commence upon
release from incarceration.
The defendant shall comply with all the
rules and requirements set by the Virginia Parole Board.
Court Costs.

The defendant shall pay court costs.

Judgment For Court Costs.
The Court orders the Clerk of this
Court to docket a judgment against the defendant for the court costs.
DNA Analysis.
The Court Orders that, prior to being released,
the defendant shall submit to the taking of a blood sample for DNA
analysis pursuant to Section 19.2-310.2 of the 1950 Code of Virginia,
as amended, et seq.
Right to Appeal.
The Court proceeded to advise the defendant of
his right to appeal, including the right to note defendant's appeal
to the appropriate Appellate Court, with due and timely written
notice to the Clerk of this Court, and the right to have an attorney
to represent the defendant or to have an attorney appointed to
represent the defendant and to have the attorney's fees, costs and
expenses in connection with any appeal paid for in the event the
defendant is financially unable to pay same.
Court Appointed Attorney For Appeal.
Upon the representations
of the defendant that the defendant was unable to retain counsel, the

JOAQUIN SHADOW RAMS, SR.
August 1, 2017
CR13002303-00, CR14003686-00
PAGE 3
Court appoints Meghan Shapiro and Christopher Leibig to represent the
defendant upon appeal.
In the event a cash appearance bond has
Cash Appearance Bond.
been posted in this matter, the Court orders that the cash appearance
bond posted be returned or, with the consent of the payer, be applied
to any fine and/or costs.
Attorney Certification.
The Court certifies that at all times
during the trial the defendant was personally present, as was defense
counsel who capably represented the defendant.
Credit For Time Served.
The defendant shall be given credit for
time spent in confinement pursuant to Section 53.1-187 of the Code of
Virginia.

It is further ORDERED that the defendant is remanded to jail to
await transfer to the Department of Corrections.
ENTERED:

HONORABLE RANDY I. BELLOWS,
CIRCUIT COURT JUDGE DESINGATE

DEFENDANT IDENTIFICATION:
Alias: JOHN ANTHONY RAMIREZ, JR.
JOHN ANTHONY RAMIREZ;
JUQUIN ANTHONY RAMS;
JOAQUIN SHADOW RAMS;
JOAQUIN S. RAMS

SSN: 11111111-3317

SENTENCING SUMMARY:

DOB: 111111/1972

Sex: M

JOAQUIN SHADOW RAMS, SR.
August 1, 2017
CR13002303-00, CR14003686-00
PAGE 4
TOTAL SENTENCE IMPOSED: Life without the Possibility of Parole plus
ten (10) years, and a fine in the amount of one hundred thousand
($100,000.00) dollars
TOTAL SENTENCE SUSPENDED: NONE
FOR ADMINISTRATIVE USE ONLY:
Virginia Crime Code: MUR-0927-Fl, FRD-2743-A9

